No.

IN THE
SUPREME COURT OF THE UNITED STATES

- PETITIONER

KEITH O. JOHNSON
(Your Name)
Vs.
STATE OF FLORIDA

-RESPONDENT(S)

PROOF OF SERVICE
I, Keith O. Johnson, do swear or declare that on this day, l\A(\RC^______
2020, as required by Supreme Court Rule 29 I have served the
enclosed Motion for leave to proceed in forma pauperis and Petition for a writ of
certiorari on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above
documents inn the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar day.
The names and addresses of those served are as follows:
-Ashley Moodv. Attorney General. PL-01, the Capitol. Tallahassee. FI 32399
-Clerk of the Supreme Court of the United States. Washington. DC 20543
I declare under penalty of perjury that the foregoing is true and correct.
Executed on M(\RUV\

1*1^ . 2020.

(Signature'

